IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR NINTH CIRCUIT
CASE NUMBER 19-55905
Dist. Ct. 2:19-CV-05500

NETFLIX, INC., et al.
RESPONDENTS,

PROOF of SERVICE
I, David Louis Whitehead , do swear or declare that on this date, January 28, 2021,
as required by Supreme Court Rule 29,1 have mailed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Jennifer Doan, esq, General Counsel for Netflix Inc. at 6500 Summerfield Rd.
Texarkana, Texas
Nos. 903-255-1000
Fax No. 903-255-7524

Emily Evitt, Counsel for MSK LLP at 2049 Century Park E.
Los Angeles, California 90067
Nos. 310-312-2000
Fax. No. 310-312-3100

/S/
David Louis Whitehead
January 2^,
, 2021

W

CASE No.
IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR NINTH CIRCUIT
CASE NUMBER 19-55905
US DISTRICT COURT FOR CENTRAL DISTRICT OF
CALIFORNIA CASE NUMBER 2:19-CV-05500
NETFLIX, INC., et al.
RESPONDENTS,
AFFIDAVIT IN SUPPORT FOR PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED SUPREME COURT
I, David Louis Whitehead testify under the laws of perjury that the following
statements are true to the best of my abilities:
I am a person over the age of 18 years old.
I am A VETERAN of the United States Military.
I served in the US Navy.
I also served in the US Army Reserve.
I also served in the US Central Intelligence Agency (CIA).
I have a right to petition the US Supreme Court pursuant to Rule 40 Veterans
Status. Cost waived.

avid Louis Whitehead
Date: January 25, 2021

1

